APPENDIX A
IN THE SUPREME COURT OF THE STATE OF
IDAHO
Docket No. 47800
STATE OF IDAHO,
)
Plaintiff-Respondent )
)
v.
)
)
DARIUS WAYNE
)
HAWS,
)
Defendant)
Appellant.
)
)

Boise, June 2020 Term
Opinion Filed: October
2, 2020
Melanie Gagnepain,
Clerk
THE COURT’S PRIOR
OPINION DATED
SEPTEMBER 9, 2020
IS HEREBY
AMENDED.

Appeal from the District Court of the Seventh Judicial
District of the State of Idaho, Fremont County.
Gregory M. Moeller, District Judge.
The appeal from the sentences imposed is dismissed.
The district court’s decision to relinquish jurisdiction
over Haws is affirmed.
Eric D. Frederickson, State Appellate Public
Defender, Boise, for appellant Darius Wayne Haws.
Kimberly Coster argued.
Lawrence G. Wasden, Idaho Attorney General, Boise,
for respondent State of Idaho. Kenneth Jorgensen
argued.
STEGNER, Justice.
Darius Haws appeals from the judgments of
conviction entered against him upon his guilty pleas

1a

2a
to delivery of a controlled substance and battery on a
police officer. Haws’ guilty pleas were entered
pursuant to plea agreements in which he waived his
right to appeal his convictions or sentences. The
district court sentenced Haws to two years fixed, with
four years indeterminate, for the delivery charge; and
one year fixed, with three years indeterminate, for the
battery charge. The sentences were ordered to run
consecutively. Additionally, the district court retained
jurisdiction over Haws. However, after Haws
performed poorly during the period of retained
jurisdiction,
the
district
court
relinquished
jurisdiction over Haws and ordered that the original
sentences be served by Haws.
Haws appealed, arguing that the district court
abused its discretion in relinquishing jurisdiction and
that his sentences were excessive. In response, the
State sought to have Haws’ appeal dismissed because
Haws expressly waived his right to appeal his
sentences in the plea agreements he signed. The
Court of Appeals agreed, dismissing Haws’ challenge
to his sentences and affirming the district court’s
decision to relinquish jurisdiction over Haws.
Haws filed a petition for review with this Court,
arguing that the Court of Appeals incorrectly held
that he had forfeited the right to address the validity
of his plea agreements by not raising an issue of
validity of those waivers in his opening brief. Instead,
Haws contends that it was the State’s obligation to
assert the applicability of the appellate waiver, and
that he should have had the opportunity to respond in
his reply brief. Additionally, Haws contends that his
appellate waiver was not made knowingly,
intelligently, and voluntarily because the district

3a
court made a statement that conflicted with the
written plea agreements by noting that Haws had the
right to appeal his sentences.
For the reasons set out in this opinion, we dismiss
Haws’ appeal from the sentences imposed. Further,
we affirm the district court’s decision to relinquish
jurisdiction.
I. FACTUAL AND PROCEDURAL
BACKGROUND
Fremont County law enforcement used confidential
informants to make several purchases of controlled
substances from Haws and his brother between April
and May of 2015. While a number of sales were made,
only three are relevant to this appeal. On April 21,
2015, Haws sold twelve hydrocodone pills to a
confidential informant. On May 11, 2015, Haws’
brother sold a confidential informant morphine pills.
That same day, Haws’ brother also sold marijuana to
a confidential informant. During these two latter
sales, Haws acted as the lookout.
Haws was arrested and charged by the State with
three counts related to the sales of controlled
substances between April and May of 2015. The State
charged Haws with delivery of a controlled substance,
related to the sale of the twelve hydrocodone pills on
April 21, 2015. The State also charged Haws with two
counts of aiding and abetting the delivery of a
controlled substance for acting as the lookout during
his brother’s sale of morphine pills and marijuana.
While out on bond, Haws committed other crimes.
On February 28, 2017, Haws went to the residence of
a female acquaintance. The woman called the police
to report that Haws was trespassing. The police

4a
responded to the woman’s call. As a law enforcement
officer approached Haws, the officer could “smell a
strong odor of alcohol coming from [Haws’] breath.”
When the officer attempted to arrest Haws, Haws
resisted, swinging his arm and hitting the officer.
Based on this altercation, the State charged Haws
with battery on a police officer, resisting and
obstructing an officer, criminal trespass, and
disturbing the peace.
On April 26, 2017, Haws entered into two plea
agreements, one on the controlled substance charges,
and the second on the battery and resisting charges.
According to the plea agreement related to the
controlled substance charges, Haws agreed to plead
guilty to delivery of a controlled substance in
exchange for the dismissal of the remaining aiding
and abetting charges. Additionally, the State agreed
to recommend that Haws be incarcerated for two
years fixed with three years indeterminate. Further,
the State would recommend that the district court
retain jurisdiction over Haws. Similarly, according to
the plea agreement relating to the battery charge,
Haws agreed to plead guilty to battery on a police
officer in exchange for the remaining charges to be
dropped. The State would recommend that Haws be
sentenced to two years fixed and three years
indeterminate, to run consecutive with the sentence
imposed in the controlled substance case. Again, the
State would recommend that the district court retain
jurisdiction over Haws.
Both plea agreements contained language
regarding a waiver of certain rights. Among other
rights, the plea agreements provided that Haws
would waive his “right to appeal [his] conviction and

5a
the sentence[s] imposed.” Further, both agreements
contained language to the effect that the agreements
were entered into intelligently, knowingly, and
voluntarily.
Following a sentencing hearing, Haws was
sentenced for both delivery of a controlled substance
and battery of a police officer. The district court
sentenced Haws to two years fixed, with four years
indeterminate,1 for the delivery charge. As for the
battery charge, the district court sentenced Haws to
one year fixed, with three years indeterminate. The
district court ordered the sentences to run
consecutively.
The district court retained jurisdiction over Haws.
Additionally, the district court ordered that Haws be
placed on a “treatment rider” to address his alcohol
abuse and history of criminal behavior. Haws arrived
at the facility at the end of July 2017. During the
period of retained jurisdiction, Haws had few
corrective actions, although his overall performance
was poor. According to the addendum to the PSI,
“Haws . . . struggled in groups to meet the basic
standard and continue[d] to have difficulty
identifying appropriate new thinking, instead
replacing it with yet more risky thinking.” He was
“passively resistant to doing the work, claiming he
[could not] hear, [could not] see the board, [did] not
understand the role-plays,” and failed to properly
participate in the role-playing assignments. “While
Without explanation, the district court sentenced outside the
State’s recommendation by adding a year to the indeterminate
portion of Haws’ sentence. However, the district court was
operating within its discretion in doing so, given the specific
terms of the plea agreement.
1

6a
Mr. Haws did for a short time increase his
participation, his increased performance was not on a
consistent basis[.]” “Haws . . struggled a great deal
with engagement in his own recovery and [did] not
appear to be motivated to complete even voluntary
treatment options.”
In late November 2017, the Department of
Correction recommended that the district court
relinquish
jurisdiction
over
Haws.
The
recommendation was the result of Haws failing to
obey a direct order to move to another bunk. Haws
stated that “he would rather go to the hole than move
where he had people on both sides” of him. His
conduct resulted in responders being called to the
facility.
Following a Rider Review Hearing, the district
court entered an order on April 2, 2018, relinquishing
jurisdiction over Haws based on the recommendation
from the Department of Correction. The effect of the
district court relinquishing jurisdiction was
imposition of the original sentences.
Haws timely appealed from his sentences in both
cases, and from the order relinquishing jurisdiction.
The appeal was assigned to the Court of Appeals. On
appeal, Haws argued that the district court abused its
discretion in imposing an excessive sentence and by
relinquishing jurisdiction. In response, the State
argued that Haws’ appeal should be dismissed
because he waived his right to appeal his sentences
when he entered into the plea agreements. The Court
of Appeals agreed, and dismissed Flaws’ appeal from
his sentences. State v. Haws, No. 46225, 2019 WL
8017375, at *1 (Idaho Ct. App. Oct. 25, 2019).
Notwithstanding the dismissal of Haws’ appeal, the

7a
Court of Appeals addressed the arguments regarding
the order relinquishing jurisdiction, concluding that
the district court did not abuse its discretion in
relinquishing jurisdiction. Id.
Haws filed a petition for review, arguing that the
Court of Appeals incorrectly held that he had forfeited
the right to address the validity of his plea
agreements by not raising an issue of validity of those
waivers in his opening brief. Instead, Haws contends
that it was the State’s obligation to assert the
applicability of the appellate waiver, and Haws
should then have had the opportunity to respond in
his reply brief. Additionally, Haws contends that his
appellate waiver was not made knowingly,
intelligently, and voluntarily because the district
court made a statement that conflicted with the
written plea agreements by noting that Haws still had
the right to appeal his sentences.
This Court granted the petition for review.
II. STANDARD OF REVIEW
“When considering a case on review from the Court
of Appeals, we do ‘not merely review the correctness
of the decision of the Court of Appeals.’” State v.
Glodowski, 166 Idaho 771, 774, 463 P.3d 405, 408
(2020) (quoting State v. Young, 138 Idaho 370, 372, 64
P.3d 296, 298 (2002)). Rather, “this Court acts as
though it is hearing the matter on direct appeal from
the decision of the trial court; however, this Court
does give serious consideration to the decision of the
Court of Appeals.” Id. (quotation omitted).

8a
III. ANALYSIS
A. Haws was not obligated to raise the validity
of the waiver of his right to appeal in his
opening brief in order for the validity of the
agreement to be reviewed by this Court.
In his opening brief, Haws does not challenge the
validity of the waiver of his appellate rights. Instead,
Haws addressed the validity of his appellate waiver
in his reply brief after the State asserted that his
appeal should be dismissed based on that appellate
waiver. The Court of Appeals declined to address
Haws’ argument regarding the validity of the
appellate waiver because Haws failed to raise the
issue in his opening brief. Haws, 2019 WL 8017375,
at *1. As a result, the Court of Appeals dismissed
Haws’ appeal from his sentences. Id.
In his petition for review, Haws argues that
“[b]ecause it is the State’s obligation to assert and
prove the enforceability of the waiver, and because
the State would forfeit its waiver argument by failing
to raise it, there is no reason to require a defendant to
address the waiver issue, anticipatorily, in his
opening brief.” The State did not respond to the
petition for review.2
“Plea agreements are essentially bilateral
contracts between the prosecutor and the defendant.”
McKinney v. State, 162 Idaho 286, 296, 396 P.3d 1168,
1178 (2017) (quoting State v. Guess, 154 Idaho 521,
Idaho Appellate Rules do not allow for a response to a petition
for review unless this Court requests a party to respond before
it grants or denies the petition. I.A.R. 118(c)(1). The Court did
not request the State to respond to Haws’ petition for review and
consequently no response to the petition was filed.
2

9a
524, 300 P.3d 53, 56 (2013)). Therefore, this Court
reviews plea agreements using general contract
principles. State v. Cope, 142 Idaho 492, 495, 129 P.3d
1241, 1244 (2006) (citation omitted). “The
interpretation of a contract’s meaning and legal effect
are questions of law to be decided by the Court if the
terms of the contract are clear and unambiguous.”
Dunlap v. State, 141 Idaho 50, 63, 106 P.3d 376, 389
(2004) (quotation omitted).
Generally, “a party may waive a provision in a
contract made exclusive for [the party’s] benefit.”
Ulery v. Routh, 107 Idaho 797, 799, 693 P.2d 443, 445
(1984) (alteration in original) (quoting Schmidt v.
Village of Kimberly, 74 Idaho 48, 59-60, 256 P.2d 515,
521 (1953)); see also 13 Williston on Contracts § 39:36
(4th ed.) (“The general view is that a party to a
written contract can waive a provision of that contract
by conduct . . . .”). This rule would equally apply to
plea agreements because this Court reviews plea
agreements using general contract principles. See
Cope, 142 Idaho at 495, 129 P.3d at 1244. Likewise,
the United States Supreme Court has held that the
prosecution may forfeit an appellate waiver by failing
to raise the applicability of the waiver. See Garza v.
Idaho, 139 S. Ct. 738, 744-45 (2019) (citation omitted)
(“[E]ven a waived appellate claim can still go forward
if the prosecution forfeits or waives the waiver.”); see
also United States v. Story, 439 F.3d 226, 231 (5th Cir.
2006) (“In the absence of the government’s objection
to [the defendant’s] appeal based on his appeal
waiver, the waiver is not binding because the
government has waived the issue.”).
This Court has also recognized that defendants
should be afforded the opportunity to respond to the

10a
State’s assertion of the applicability of an appellate
waiver. See McKinney, 162 Idaho at 296, 396 P.3d at
1178. In McKinney, this Court stated,
[i]f a defendant files an appeal and has
waived the right to appeal the only
issue(s) that the defendant seeks to raise
on appeal, and that fact is brought to our
attention before oral argument, we will
issue an order conditionally dismissing
the appeal in order to give the defendant
an opportunity to show good cause why
the appeal should not be dismissed. If
the defendant cannot do so, we will
dismiss the appeal. . . .
If the defendant has challenged the
validity of the waiver of the right to
appeal, we will address that issue and, if
it is decided against the defendant, we
will dismiss the appeal without
addressing the other issue(s).
Id.
When presented with the same question, federal
circuit courts have held similarly. See, e.g., United
States v. Hahn, 359 F.3d 1315, 1328 (10th Cir. 2004)
(creating a procedure in which the State must assert
the applicability of an appellate waiver, then allowing
the defendant the opportunity to respond); United
States v. Goodson, 544 F.3d 529, 534 (3d Cir. 2008)
(“[I]t is incumbent upon the government to invoke the
[appellate] waiver’s applicability in the first instance”
because the government is the party who bargained
for and benefits from the waiver).

11a
In this case, Haws was not obligated to raise the
issue regarding the validity of his appellate waiver in
his opening brief. As the State is the sole beneficiary
of an appellate waiver, it is the State’s obligation to
invoke the applicability of that waiver. See Ulery, 107
Idaho at 799, 693 P.2d at 445. Further, a defendant
should have the opportunity to respond once the
waiver is invoked because there are many situations
in which an appellate waiver might not be applicable
to an immediate appeal or the waiver might be
invalid. See Garza, 139 S. Ct. at 744. Finally, this
Court has recognized that a defendant should have
the opportunity to respond to the State’s invocation of
an appellate waiver, whether it is through a brief
following a conditional dismissal of the appeal or in
the reply brief. See McKinney, 162 Idaho at 296, 396
P.3d at 1178. In other words, while an appeal may be
subject to dismissal based on an appellate waiver, the
State is the party who must invoke the application of
the waiver, and the defendant must be afforded an
opportunity to respond. See id.
We want to emphasize that the better and
preferred practice would be for the State to file a
motion to dismiss the appeal rather than invoke the
appellate waiver in its response brief. It was noted
during oral argument that the State was not aware of
the appellate waiver until after the briefing had been
scheduled. However, the State could have filed a
motion to dismiss the appeal and sought to stay the
briefing. This would be the preferred procedure.
We conclude Haws should be afforded the
opportunity to respond to the State’s appellate waiver
arguments in his reply brief; as a result, given the
procedural posture of this case, the issue has not been

12a
forfeited by Haws because he did not address this
issue in his initial brief. Accordingly, this Court will
address whether Haws made a knowing, intelligent,
and voluntary waiver of his appellate rights.
B. Haws made a knowing, intelligent, and
voluntary waiver of his appellate rights.
Accordingly, his appeal will be dismissed.
In his reply brief, Haws argued that the waiver of
his appellate rights were not mentioned at the plea
hearing, notwithstanding the exhaustive discussion
concerning all of the rights Haws would be waiving.
During the plea hearing, the district court inquired
into Haws’ understanding of the plea agreements.
This inquiry included questions regarding whether
Haws understood that he would be waiving certain
rights. Relevant to this appeal, the district court and
Haws engaged in the following discussion:
THE COURT: Do you understand that if
you plead guilty, you’re giving up any
and all other rights that you may have
as a defendant in a criminal case,
including those that I may not have
mentioned here in court today?
[HAWS]: Yes.
THE COURT: Do you understand that if
you plead guilty, you’re giving up all
your defenses to this case and basically
only reserving your right to appeal the
sentences that will come down later?
[HAWS]: Yes.
Although the Court of Appeals did not explicitly
address this argument, it stated, “during the plea

13a
colloquy, Haws affirmed that he understood the terms
of the plea agreement before he entered guilty pleas.”
Haws, 2019 WL 8017375 at *1 (citations omitted). In
reaching this conclusion, the Court of Appeals cited
State v. Cope, 142 Idaho at 495-99, 129 P.3d at 124549, in which this Court rejected a defendant’s
argument that a district court’s oral pronouncement
invalidated an appellate waiver. Accordingly, it
appears the Court of Appeals concluded that the
district court’s apparent misstatement that Haws had
reserved his right to appeal the sentences did not
invalidate Haws’ written waiver of his right to appeal.
See Haws, 2019 WL 8017375 at *1.
In his petition for review, Haws argued that his
appellate waiver should not be enforced because the
record demonstrated that his waiver had not been
made knowingly, intelligently, and voluntarily
because the district court stated in court that Haws
had the right to appeal his sentence.3 Further, Haws
argues that the Court of Appeals’ reliance on Cope
was misplaced. Instead, Haws argues that Cope
stands for the proposition that a district court’s
statements made at sentencing could not
retrospectively alter the defendant’s understanding at
the time he entered his guilty plea. In contrast, Haws
contends that this case involves statements made
during the plea colloquy, prior to the entry of his
guilty pleas but after the plea agreements had been
signed.

The Court notes that Haws does not challenge the
voluntariness of his plea, but instead disputes the applicability
of the agreement itself, specifically whether it barred his right to
pursue an appeal based on his colloquy with the trial judge.
3

14a
Generally, this Court will uphold a waiver of a
defendant’s appellate rights if the record shows the
waiver was made knowingly, intelligently, and
voluntarily. Cope, 142 Idaho 496, 129 P.3d 1245; see
also State v. Lee, 165 Idaho 254, 259, 443 P.3d 268,
273 (Ct. App. 2019). The question in this case is
whether the misstatement by the district court that
Haws had reserved his right to appeal his sentence,
in direct conflict with the written plea waiver,
demonstrated that Haws did not understand he was
waiving his appellate rights. We conclude that it does
not.
This Court addressed a similar question in Cope,
142 Idaho at 497, 129 P.3d at 1246. In Cope, this
Court considered whether “the district court’s oral
reference to [a defendant’s] right to appeal made at
the sentencing hearing” nullified Cope’s appellate
waiver made in a plea agreement. Id. While the Court
ultimately decided the case on the basis that the
statements made by the district court did not conflict
with the written plea agreement, the Court reviewed
the legal landscape of statements made by district
courts that conflict with written plea agreements.
The Ninth Circuit addressed this question, and
stands alone in its conclusion that a statement by a
district court may nullify an appellate waiver. In
United States v. Buchanan, 59 F.3d 914, 917-18 (9th
Cir. 1995), the defendant orally moved to withdraw
his guilty plea at the sentencing hearing. Id. at 916.
During the argument, the district court stated that
Buchanan “could appeal the sentencing findings.” Id.
at 916. Instead of Buchanan withdrawing his guilty
plea, the parties filed a modification to the plea
agreement. Id. The modified plea agreement

15a
stipulated that Buchanan waived his right to appeal
his sentence, as long as his sentence was within the
applicable sentencing guidelines. Id. Despite that
waiver clause, the district court, during sentencing,
again informed Buchanan that he could appeal his
sentence. Id. at 917. Regarding Buchanan’s right to
appeal, the Ninth Circuit held:
[H]ere, the oral pronouncement must
control. The district court twice stated
that Buchanan had a right to appeal his
sentence. Indeed, Buchanan’s answer of
“Yes, sir” to the district court’s question
of whether he understood that he had a
right to appeal indicates Buchanan’s
expectation that he could appeal his
sentence
and
evinces
a
misunderstanding of the substance of
his plea agreement. We note also that
the government did not object to the
district court’s erroneous statements.
Thus, Buchanan could have no reason
but to believe that the court’s advice on
the right to appeal was correct.
Id. at 917-18.
Following Buchanan, the Ninth Circuit clarified
and narrowed its position regarding oral
pronouncements by district courts in United States v.
Lopez-Armenta, 400 F.3d 1173 (9th Cir. 2005). In
Lopez-Armenta, the defendant pleaded guilty and
waived his right to appeal. Id. at 1174. Later at the
sentencing hearing, the district court informed Lopez
that he had the right to appeal. Id. at 1175. On
appeal, Lopez cited to Buchanan, arguing that the
court’s statement informing him that he had a right

16a
to appeal trumped his appellate waiver. The Ninth
Circuit did not accept Lopez’s argument, and
explained how Buchanan is to be applied:
Buchanan addresses the situation in
which confusion regarding appellate
rights arises contemporaneously with the
waiver, while [United States v. Floyd,
108 F.3d 202 (9th Cir. 1997), overruled
on other grounds by United States v.
Jacobo Castillo, 496 F.3d 947, 949 (9th
Cir. 2007)] applies where the defendant
attempts to have later confusion “relate
back” to his waiver. Accordingly, we hold
that Lopez knowingly and voluntarily
waived his right to appeal the
suppression ruling, and his waiver was
not affected by the district court’s
ambiguous statement three months
later at the sentencing hearing.
Lopez-Armenta, 400 F.3d at 1177 (italics added).
However, as this Court noted in Cope, almost every
federal circuit court has criticized the holding in
Buchanan. See, e.g., United States v. Fisher, 232 F.3d
301, 303-04 (2d Cir. 2000); United States v. Atterberry,
144 F.3d 1299, 1301 (10th Cir. 1998); United States v.
Michelsen, 141 F.3d 867, 872-73 (8th Cir. 1998);
United States v. Ogden, 102 F.3d 887, 888-89 (7th Cir.
1996); United States v. Melancon, 972 F.2d 566, 568
(5th Cir. 1992); see also United States v. Arrellano,
213 F.3d 427, 431 (8th Cir. 2000) (quotation omitted)
(“Any statement by the court at the sentencing
hearing could not have affected [the defendant’s]
decision, made nearly three months earlier, to plead
guilty and waive his appellate rights.”).

17a
For example, the Sixth Circuit noted in Fleming:
[W]e expressly decline to adopt the
Ninth Circuit’s rule [Buchanan], and
add our voice to the chorus of criticism of
that decision. . . .
No other circuit has adopted the rule
of Buchanan, but several have spoken on
the issue. The Eighth Circuit declined to
follow Buchanan on the basis that “[a]ny
statement by the court at sentencing
could not have affected [the defendant’s]
decision ... to plead guilty and waive his
appellate rights.” United States v.
Michelsen, 141 F.3d 867, 872 (8th
Cir.1998), see also, United States v.
Arrellano,
213
F.3d
427
(8th
Cir.2000). . . .
. . . It is sufficient to say that any
pronouncement from the bench that
seeks unilaterally to amend a plea
agreement exceeds the court’s authority
under the Criminal Rules and is without
effect.
Fleming, 239 F.3d 761, 765 (6th Cir. 2001). In other
words, it appears that the concern of those circuits
that have rejected the Ninth Circuit’s approach is that
the statement made by the district court cannot
retrospectively negate the defendant’s knowing,
intelligent, and voluntary waiver because it did not
influence the defendant’s decision to plead guilty and
waive his appellate rights.
We agree with the majority of federal courts that a
misstatement by the district court cannot, by itself,

18a
invalidate a plea agreement which is made
knowingly, intelligently, and voluntarily. Instead, we
hold that any misstatement by the district court
should merely be a fact to consider when determining
whether the defendant made a knowing, intelligent,
and voluntary waiver of his appellate rights.
Here, we hold that the defendant made a knowing,
intelligent, and voluntary waiver of his appellate
rights. Both plea agreements contained language that
the plea agreements were entered into knowingly,
intelligently, and voluntarily. Further, during the
plea colloquy, the district court asked about Haws’
understanding of the agreements multiple times. For
example, the district court had the following exchange
with Haws:
THE COURT: Now, Mr. Haws, I’ve
looked at both plea agreements
carefully; and they both bear your
signature. Is that not true?
[HAWS]: Yes.
THE COURT: And by signing the
agreement, can I conclude that that
means that you’ve read through the
agreement?
[HAWS]: I have, Your Honor.
THE COURT: By signing the agreement,
can I conclude that that means that you
understood what you read?
[HAWS]: Yes.
THE COURT: And by signing the
agreement, can I conclude that that

19a
means you agree to all the terms
contained therein?
[HAWS]: Yes, Your Honor.
Based on the conversations during the plea colloquy
and the language in the plea agreements, the district
court found that Haws “understood and consented to
the terms of the plea agreements.” Therefore, there is
no doubt that Haws made a voluntary, knowing, and
intelligent waiver of his appellate rights. Here, the
district court’s misstatement did not affect Haws’
decision to plead guilty or to waive his appellate
rights. Accordingly, the district court’s conflicting
statement did not invalidate Haws’ knowing,
intelligent, and voluntary waiver of his appellate
rights.
C. The district court did not abuse
discretion in relinquishing jurisdiction.

its

As a preliminary matter, this Court reaches this
issue because the district court’s decision to
relinquish jurisdiction over Haws is outside the scope
of Haws’ appellate waiver. In his plea agreements,
Haws waived his right to appeal his convictions and
the sentences imposed. However, the decision to
relinquish jurisdiction is outside the applicability of
the appellate waiver. Accordingly, we will address the
issue on its merits.
Following the district court’s pronouncement of
Haws’ sentence, the district court retained
jurisdiction over him. The district court placed Haws
on a “treatment rider” to address his history of alcohol
abuse and criminal behavior. Haws performed poorly
during the period of retained jurisdiction. According
to the addendum to the PSI, “Haws . . struggled in

20a
groups to meet the basic standard and continue[d] to
have difficulty identifying appropriate new thinking,
instead replacing it with yet more risky thinking.” He
was “passively resistant to doing the work, claiming
he [could not] hear, [could not] see the board, [did] not
understand the role-plays,” and failed to properly
participate in the role-playing assignments. “While
Mr. Haws did for a short time increase his
participation, his increased performance was not on a
consistent basis[.]” Eventually, the Department of
Correction recommended that the district court
relinquish jurisdiction over Haws after a dispute in
which Haws refused to switch bunks. The district
court entered an order relinquishing jurisdiction over
Haws based on the recommendation from the
Department of Correction.
On appeal, Haws argues that the district court
abused its discretion in relinquishing jurisdiction.
Haws contends that his mental and physical
challenges
were
improperly
interpreted
as
“resistance.” Further, Haws argues that his mental
struggles were not taken into consideration regarding
the bunk dispute, asserting that Haws’ mental state
was challenged by being crowded. The State responds,
arguing that Haws did not perform well during the
period of retained jurisdiction. Further, the State
contends that the district court articulated and
applied the correct legal standard applicable to the
decision to relinquish jurisdiction.
“The decision to relinquish jurisdiction . . . is
committed to the district judge’s discretion.” State v.
Le Veque, 164 Idaho 110, 113, 426 P.3d 461, 464
(2018) (quoting State v. Coassolo, 136 Idaho 138, 143,
30 P.3d 293, 298 (2001)); see also I.C. § 19-2601. When

21a
reviewing a district court’s decision for an abuse of
discretion, this Court analyzes “whether the trial
court: (1) correctly perceived the issue as one of
discretion; (2) acted within the outer boundaries of its
discretion; (3) acted consistently with the legal
standards applicable to the specific choices available
to it; and (4) reached its decision by the exercise of
reason.” State v. Bodenbach, 165 Idaho 577, 591, 448
P.3d 1005, 1019 (2019) (quoting Lunneborg v. My Fun
Life, 163 Idaho 856, 863, 421 P.3d 187, 194 (2018)).
Finally, a district court’s decision to relinquish
jurisdiction will not be deemed an abuse of discretion
if the district court has “sufficient information to
determine that a suspended sentence and probation
would be inappropriate under [I.C. § 19-2521].” State
v. Brunet, 155 Idaho 724, 729, 316 P.3d 640, 645
(2013) (alteration in original) (quoting State v.
Statton, 136 Idaho 135, 137, 30 P.3d 290, 292 (2001)).
The district court did not abuse its discretion in
relinquishing jurisdiction over Haws. The district
court reviewed the applicable standards, including
the factors under Idaho Code section 19-2521. The
district court ultimately concluded that “there [was]
an undue risk that during any period of suspended
sentence or probation that the defendant [would]
commit another crime.” While the district court
recognized that mitigating factors existed in the case,
the district court concluded that it could not “find that
[the mitigating factors] are present to the degree that
it would cause the [c]ourt to feel differently” about
imposing a prison sentence.
Further, the district court had sufficient
information to believe that there was an undue risk
that Haws would commit another crime if he were

22a
granted probation. For example, the district court
noted that Haws had fourteen misdemeanors, three
prior felonies, and approximately eight probation
violations. Further, when presented an opportunity
for treatment, Haws failed to adequately participate
in his treatment or demonstrate that he had changed
the behavior that had previously led him to frequently
commit crime.
Haws is asking this Court to reweigh evidence
regarding Haws’ mental illnesses and how that
evidence impacted his performance during the period
of retained jurisdiction. This Court will not overturn
a district court’s factual findings regarding
aggravating and mitigating factors unless those
decisions are clearly erroneous. See Bodenbach, 165
Idaho at 592, 448 P.3d at 1020. Here, the district court
adequately considered these concerns and exercised
reason in deciding to relinquish jurisdiction.
Accordingly, the district court did not err in
relinquishing jurisdiction, and we affirm its decision
to do so.
IV. CONCLUSION
For the foregoing reasons, Haws’ appeal from the
sentences imposed is dismissed. Further, the district
court’s decision to relinquish jurisdiction over Haws
is affirmed.
Chief Justice BURDICK, Justices BRODY, BEVAN
and TROUT, J. Pro Tem, CONCUR.

23a
APPENDIX B
IN THE COURT OF APPEALS OF THE STATE
OF IDAHO
Docket No. 46225
STATE OF IDAHO,

)
)
Plaintiff-Respondent, )
)
)
v.
)
)
DARIUS WAYNE
)
HAWS,
)
)
Defendant-Appellant. )
)

Filed: October 25, 2019
Karel A. Lehrman,
Clerk
THIS IS AN
UNPUBLISHED
OPINION AND SHALL
NOT BE CITED AS
AUTHORITY

Appeal from the District Court of the Seventh Judicial
District, State of Idaho, Fremont County. Hon.
Gregory Moeller, District Judge.
Appeals from judgments of conviction and sentences,
dismissed; and orders relinquishing jurisdiction,
affirmed.
Eric D. Fredericksen, State Appellate Public
Defender; Kim A. Coster, Deputy Appellate Public
Defender, Boise, for appellant.
Hon. Lawrence G. Wasden, Attorney General; Lori A.
Fleming, Deputy Attorney General, Boise, for
respondent.

24a
_________________________________________________
Before GRATTON, Chief Judge; HUSKEY, Judge;
and BRAILSFORD, Judge
_________________________________________________
PER CURIAM
In two separate cases, Darius Wayne Haws pleaded
guilty pursuant to a plea agreement to delivery of a
controlled substance, Idaho Code § 37-2732(a)(1)(A),
and battery on a police officer, I.C. § 18-915(3). A term
of the plea agreement required Haws to waive his
right to appeal his sentence. Respectively, the district
court imposed a unified six-year sentence, with two
years determinate, and a unified three-year sentence,
with one year determinate, with the sentences to run
consecutively. The district court retained jurisdiction,
and Haws was sent to participate in the rider
program.
Subsequently,
the
district
court
relinquished jurisdiction. Haws appeals, claiming the
district court erred by relinquishing jurisdiction. He
also argues his sentences are excessive and constitute
an abuse of discretion.
In his opening brief, Haws does not challenge the
validity of his guilty plea or that his waiver of his
appellate rights was not knowing, intelligent, and
voluntary, but instead raises that issue for the first
time in his reply brief. Issues not raised in the
opening brief are waived for purposes of appeal. I.A.R.
35(a)(6); State v. Hawkins, 159 Idaho 507, 517, 363
P.3d 348, 358 (2009). Moreover, during the plea
colloquy, Haws affirmed that he understood the terms
of the plea agreement before he entered guilty pleas.
Now, Haws contends that his sentences are excessive
and constitute an abuse of discretion. We hold that

25a
Haws’ appellate challenges to excessive sentences
have been waived by his plea agreement. See I.C.R.
11(f)(1); State v. Cope, 142 Idaho 492, 495-99, 129 P.3d
1241, 1245-49 (2006); State v. Rodriguez, 142 Idaho
786, 787, 133 P.3d 1251, 1252 (Ct. App. 2006).
Accordingly, we dismiss Haws’ claims that the district
court abused its discretion by imposing excessive
sentences.
The decision to place a defendant on probation or
whether, instead, to relinquish jurisdiction over the
defendant is a matter within the sound discretion of
the district court and will not be overturned on appeal
absent an abuse of that discretion. State v. Hood, 102
Idaho 711, 712, 639 P.2d 9, 10 (1981); State v. Lee, 117
Idaho 203, 205-06, 786 P.2d 594, 596-97 (Ct. App.
1990). When a trial court’s discretionary decision is
reviewed on appeal, the appellate court conducts a
multi-tiered inquiry to determine whether the lower
court: (1) correctly perceived the issue as one of
discretion; (2) acted within the boundaries of such
discretion; (3) acted consistently with any legal
standards applicable to the specific choices before it;
and (4) reached its decision by an exercise of reason.
State v. Herrera, 164 Idaho 261, 270, 429 P.3d 149,
158 (2018).
Applying these standards, and having reviewed the
record in this case, we cannot say that the district
court abused its discretion by relinquishing
jurisdiction. Therefore, the orders relinquishing
jurisdiction are affirmed.

26a
APPENDIX C
MARCIA MURDOCH, P.A. (ISB No. 8198)
BROCK H. BISCHOFF, Deputy P.A. (ISB No. 9006)
OFFICE OF THE FREMONT COUNTY
PROSECUTING ATTORNEY
22 West 1st North
St. Anthony, Idaho 83445
T: (208) 624-4418
F: (208) 624-3404
Attorneys for the State of Idaho
IN THE DISTRICT COURT OF THE SEVENTH
JUDICIAL DISTRICT OF THE STATE OF
IDAHO, IN AND FOR THE COUNTY OF
FREMONT
STATE OF IDAHO,

CR-2016-1756

Plaintiff,

PLEA AGREEMENT
I.C.R. 11(f)(1)(B)

vs.
DARIUS WAYNE
HAWS,
Defendant.

The State of Idaho (“STATE”), by and through
counsel, Marcia Murdoch, Fremont County
Prosecuting Attorney, and the Defendant, DARIUS
WAYNE HAWS (“DEFENDANT”), by and through
his counsel, Joshua Garner, Esq., hereby agree and
stipulate as follows:
A.
AGREEMENT AND STIPULATION
1. Guilty plea. The DEFENDANT agrees to, and
shall, plead guilty to the following charge

27a
contained in the Information: COUNT I:
DELIVERY
OF
A
CONTROLLED
SUBSTANCE, Idaho Code §37-2732(a)(1)(A),
felony.
2. No additional criminal charges. In exchange
for the guilty plea described in paragraph 1, above,
the STATE agrees to, and will, file no additional
criminal charges arising out of the same facts and
circumstances as the pending matter. Further, the
State agrees to dismiss COUNT II: AIDING AND
ABETTING DELIVERY OF A CONTROLLED
SUBSTANCE, Idaho Code §37-2732(a)(1)(A),
18-204, a felony, and COUNT III: : AIDING
AND
ABETTING
DELIVERY
OF
A
CONTROLLED SUBSTANCE, Idaho Code 372732(a)(1)(B), 18-204, a felony, part of this
agreement.
3. Sentencing. The STATE shall recommend, with
the understanding that such recommendation
shall not be binding upon the court, that
DEFENDANT be sentenced to serve the following
specific sentence:
a. Incarceration: Two years (2) fixed; three years
(3) indeterminate for a total unified sentence of
five years (5).
b. Fines: criminal fine of two thousand five
hundred dollars ($2,500.00), and civil penalties
shall be left to the discretion of the court.
c. Retain Jurisdiction:
the
court
retain
jurisdiction of the Defendant for a period of
time to be determined by the court.
d. Restitution: Order full restitution on all
charges contained in the complaint. (The

28a
STATE shall be allowed thirty (30) days within
which to file a motion for restitution; and the
DEFENDANT may either agree to same, or file
written objection. If objection is filed, then a
court hearing shall be held to determine
amount or restitution.)
4. Restitution. The DEFENDANT agrees to, and
shall pay, any and all reasonable restitution
amounts on all drugs tested arising out of the facts
and circumstances underlying all charges
contained in the information of the crime.
5. Other argument. As to any other conditions not
expressly agreed upon in this written plea
agreement, the parties are free to argue as they
see fit.
6. Entire agreement. This agreement is the
complete and only agreement between the parties.
There are no other agreements written or oral. No
promises, agreements, or conditions have been
entered into other than those set forth herein. This
agreement supersedes prior understanding, if any,
of the parties, whether written or oral. This
agreement may not be modified other than by a
written memorandum signed by the parties or on
the record during Court proceedings.
B.
NON-BINDING AGREEMENT
This agreement is made pursuant to Idaho
Criminal Rule 11(f)(1)(B), and shall not be binding
upon the Court. The DEFENDANT acknowledges
that if the court does not accept the terms and
conditions of this agreement, that he shall have no
right to withdraw his guilty plea.

29a
C.
DEFENDANTS ACKNOWLEDGEMENT AND
CONSENT
DEFENDANT in the above-entitled case, by
executing this plea agreement, acknowledges and
consents to the following:
1. Understanding of the potential punishment.
I understand that the crime to which I am
pleading guilty is a felony punishable as follows:
(a.) imprisonment of up to life; (b.) fine up to
twenty-five thousand dollars ($25,000.00); or (c.)
both.
2. Consequences
for
non-United
States
citizens. I understand that if I am not a citizen of
the United States of America, the entry of a plea
or making of factual admissions could have
consequences of deportation or removal, inability
to obtain legal status in the United States of
American, or denial of an application for United
States’ Citizenship.
3. Parties affected by the agreement. I
understand that this plea agreement is only
between the STATE and me; and therefor, this
plea agreement does not affect the rights of any
other persons or parties.
4. Intelligent,
knowing,
and
voluntary
agreement. I, represent each of the following is
true and correct:
a. I am signing this agreement with full
knowledge of the facts, my legal rights, and the
consequences of entering the guilty plea to a
misdemeanor, as described above;

30a
b. No unlawful threats have been made to secure
my guilty plea, nor have any promises been
made to get me to plead guilty, other than those
promises made by the STATE as set forth
herein; and
c. I am signing this agreement willingly, without
force or duress, and of my own free will and
choice.
5. No other promises or agreements. I
understand and acknowledge that no other
agreements or conditions have been made or
represented to me, except those terms of the plea
agreement set forth herein.
6. Waiver of constitutional rights. I understand
that I am waiving the following rights guaranteed
by the United States Constitution and the
Constitution of the State of Idaho:
a. My right to a jury trial;
b. My right against self-incrimination, including
my right not to testify against myself;
c. My right to require the STATE to call
witnesses against me and my right to call
witnesses in my defense;
d. My right to require the STATE to prove my
guilt beyond a reasonable doubt; and
e. My right to appeal my conviction and the
sentence imposed.
7. Changes in circumstances. I understand that
the STATE has made this agreement contingent
on the condition that the circumstances under
which the agreement was made is in accordance
with my representations and that such

31a
circumstances will remain unchanged prior to
sentencing. These circumstances include, but are
not limited to, my representations concerning my
past criminal record, my compliance with bail
release conditions (such as appearing at the
sentencing hearing), and my compliance with the
law prior to sentencing. I understand that changes
in these circumstances could amount to a breach
of this agreement, and in that case the STATE
would be excused from performing under this
agreement.
8. Understanding
of
the
acknowledge the following:

agreement.

I

a. I have read this written plea agreement and
understand its terms and the consequences of
my entering into this plea agreement;
b. I agree to be bound by all of the terms and
conditions of this agreement;
c. Prior to entering into this agreement, I have
had sufficient opportunity and time to discuss
the terms, conditions, and consequences of
entering into it, with my attorney; and
d. I am satisfied with the legal services and legal
advice provided by my attorney of record in this
matter.
DATED effective as of the date set forth below.
DEFENDANT’S ACKNOWLEDGEMENT
I have read this plea agreement in its entirety and
discussed it with my attorney of record. I acknowledge
that it fully sets forth my agreement with the State of
Idaho. I further state that there have been no
additional promises or representations made to me by

32a
any officials of the STATE in connection with this
matter.
DEFENDANT:
[Signature omitted] Dated this 26 day of April, 2017.
DARIUS WAYNE HAWS, Defendant
DEFENSE COUNSEL CERTIFICATION
I certify that I am the attorney of record for the
DEFENDANT, and that he has read and understands
the terms and conditions of this plea agreement.
[Signature omitted] Dated this 26 day of April, 2017.
JOSHUA GARNER, Esq.,
Attorney for the Defendant
STATE OF IDAHO
[Signature omitted] Dated this 25 day of April, 2017.
MARCIA MURDOCH, P.A.
Attorney for the State of Idaho

33a
APPENDIX D
MARCIA MURDOCH, P.A. (ISB No. 8198)
BROCK H. BISCHOFF, Deputy P.A. (ISB No. 9006)
OFFICE OF THE FREMONT COUNTY
PROSECUTING ATTORNEY
22 West 1st North
St. Anthony, Idaho 83445
T: (208) 624-4418
F: (208) 624-3404
Attorneys for the State of Idaho
IN THE DISTRICT COURT OF THE SEVENTH
JUDICIAL DISTRICT OF THE STATE OF
IDAHO, IN AND FOR THE COUNTY OF
FREMONT
STATE OF IDAHO,

CR-2017-285

Plaintiff,

PLEA AGREEMENT
I.C.R. 11(f)(1)(B)

vs.
DARIUS WAYNE
HAWS,
Defendant.

The State of Idaho (“STATE”), by and through
counsel, Marcia Murdoch, Fremont County
Prosecuting Attorney, and the Defendant, DARIUS
WAYNE HAWS (“DEFENDANT”), by and through
his counsel, Joshua Garner, Esq., hereby agree and
stipulate as follows:
A.
AGREEMENT AND STIPULATION
1. Guilty plea. The DEFENDANT agrees to, and
shall, plead guilty to the following charge

34a
contained in the Information: COUNT I:
BATTERY ON A POLICE OFFICER, Idaho
Code §18-915(3), 18-903, a felony.
2. No additional criminal charges. In exchange
for the guilty plea described in paragraph 1, above,
the STATE agrees to, and will, file no additional
criminal charges arising out of the same facts and
circumstances as the pending matter. Further, the
State agrees to dismiss COUNT II: RESISTING
AND OBSTRUCTING OFFICER, Idaho Code
§18-705, a misdemeanor; COUNT III:
CRIMINAL TRESPASS, Idaho Code §18-7008,
a
misdemeanor;
and
COUNT
IV:
DISTURBING THE PEACE, Idaho Code §186409, a misdemeanor, part of this agreement.
3. Sentencing. The STATE shall recommend, with
the understanding that such recommendation
shall not be binding upon the court, that
DEFENDANT be sentenced to serve the following
specific sentence:
a. Incarceration: Two years (2) fixed; three years
(3) indeterminate for a total unified sentence of
five years (5).
b. Fines: criminal fine of two thousand five
hundred dollars ($2,500.00), and civil penalties
shall be left to the discretion of the court.
c. Retain Jurisdiction:
the
court
retain
jurisdiction of the Defendant for a period of
time to be determined by the court. The State
further recommends that this sentence
run consecutive with the sentence set in
Fremont County Court Case No. CR-20161756, as required by Statute.

35a
d. No-Contact Order: A No-Contact Order shall
remain in effect for the victims in the
Information of a distance of at least five
hundred yards (500), until the defendant
completes any probation on this charge.
e. Restitution: Order full restitution on all
charges contained in the complaint. (The
STATE shall be allowed thirty (30) days within
which to file a motion for restitution; and the
DEFENDANT may either agree to same, or file
written objection. If objection is filed, then a
court hearing shall be held to determine
amount or restitution.)
4. Restitution. The DEFENDANT agrees to, and
shall pay, any and all reasonable restitution
amounts arising out of the facts and circumstances
underlying all charges contained in the
information of the crime.
5. Other argument. As to any other conditions not
expressly agreed upon in this written plea
agreement, the parties are free to argue as they
see fit.
6. Entire agreement. This agreement is the
complete and only agreement between the parties.
There are no other agreements written or oral. No
promises, agreements, or conditions have been
entered into other than those set forth herein. This
agreement supersedes prior understanding, if any,
of the parties, whether written or oral. This
agreement may not be modified other than by a
written memorandum signed by the parties or on
the record during Court proceedings.

36a
B.
NON-BINDING AGREEMENT
This agreement is made pursuant to Idaho
Criminal Rule 11(f)(1)(B), and shall not be binding
upon the Court. The DEFENDANT acknowledges
that if the court does not accept the terms and
conditions of this agreement, that he shall have no
right to withdraw his guilty plea.
C.
DEFENDANT’S ACKNOWLEDGEMENT AND
CONSENT
DEFENDANT in the above-entitled case, by
executing this plea agreement, acknowledges and
consents to the following:
1. Understanding of the potential punishment.
I understand that the crime to which I am
pleading guilty is a felony punishable as follows:
(a.) imprisonment of up to life; (b.) fine up to
twenty-five thousand dollars ($25,000.00); or (c.)
both.
2. Consequences
for
non-United
States
citizens. I understand that if I am not a citizen of
the United States of America, the entry of a plea
or making of factual admissions could have
consequences of deportation or removal, inability
to obtain legal status in the United States of
American, or denial of an application for United
States’ Citizenship.
3. Parties affected by the agreement. I
understand that this plea agreement is only
between the STATE and me; and therefor, this

37a
plea agreement does not affect the rights of any
other persons or parties.
4. Intelligent,
knowing,
and
voluntary
agreement. I, represent each of the following is
true and correct:
a. I am signing this agreement with full
knowledge of the facts, my legal rights, and the
consequences of entering the guilty plea to a
misdemeanor, as described above;
b. No unlawful threats have been made to secure
my guilty plea, nor have any promises been
made to get me to plead guilty, other than those
promises made by the STATE as set forth
herein; and
c. I am signing this agreement willingly, without
force or duress, and of my own free will and
choice.
5. No other promises or agreements. I
understand and acknowledge that no other
agreements or conditions have been made or
represented to me, except those terms of the plea
agreement set forth herein.
6. Waiver of constitutional rights. I understand
that I am waiving the following rights guaranteed
by the United States Constitution and the
Constitution of the State of Idaho:
a. My right to a jury trial;
b. My right against self-incrimination, including
my right not to testify against myself;
c. My right to require the STATE to call
witnesses against me and my right to call
witnesses in my defense;

38a
d. My right to require the STATE to prove my
guilt beyond a reasonable doubt; and
e. My right to appeal my conviction and the
sentence imposed.
7. Changes in circumstances. I understand that
the STATE has made this agreement contingent
on the condition that the circumstances under
which the agreement was made is in accordance
with my representations and that such
circumstances will remain unchanged prior to
sentencing. These circumstances include, but are
not limited to, my representations concerning my
past criminal record, my compliance with bail
release conditions (such as appearing at the
sentencing hearing), and my compliance with the
law prior to sentencing. I
understand that
changes in these circumstances could amount to a
breach of this agreement, and in that case the
STATE would be excused from performing under
this agreement.
8. Understanding
of
the
acknowledge the following:

agreement.

I

a. I have read this written plea agreement and
understand its terms and the consequences of
my entering into this plea agreement;
b. I agree to be bound by all of the terms and
conditions of this agreement;
c. Prior to entering into this agreement, I have
had sufficient opportunity and time to discuss
the terms, conditions, and consequences of
entering into it, with my attorney; and

39a
d. I am satisfied with the legal services and legal
advice provided by my attorney of record in this
matter.
DATED effective as of the date set forth below.
DEFENDANT’S ACKNOWLEDGEMENT
I have read this plea agreement in its entirety and
discussed it with my attorney of record. I acknowledge
that it fully sets forth my agreement with the State of
Idaho. I further state that there have been no
additional promises or representations made to me by
any officials of the STATE in connection with this
matter.
DEFENDANT:
[Signature omitted] Dated this 26 day of April, 2017.
DARIUS WAYNE HAWS, Defendant
DEFENSE COUNSEL CERTIFICATION
I certify that I am the attorney of record for the
DEFENDANT, and that he has read and understands
the terms and conditions of this plea agreement.
[Signature omitted] Dated this 26 day of April, 2017.
JOSHUA GARNER, Esq.,
Attorney for the Defendant
STATE OF IDAHO
[Signature omitted] Dated this 25 day of April, 2017.
MARCIA MURDOCH, P.A.
Attorney for the State of Idaho

40a
APPENDIX E
[1] IN THE SUPREME COURT OF THE STATE OF
IDAHO
THE STATE OF IDAHO,
Plaintiff/Respondent

*
*
*
vs.
* DOCKET NOS. 46225* 2018,
* AND 46226-2018
DARIUS WAYNE HAWS, *
Defendant/Appellant.
*
PLAINTIFF/RESPONDENT
LAWRENCE G. WASDEN, ESQ.
STATE OF IDAHO ATTORNEY GENERAL
APPELLATE DIVISION
700 WEST STATE STREET
P.O. BOX 83720
BOISE, IDAHO 83720-0010
DEFENDANT/APPELLANT
ERIC D. FREDERICKSEN, ESQ.
STATE APPELLATE PUBLIC DEFENDER’S
OFFICE
322 E. FRONT STREET, SUITE 570
BOISE, IDAHO 83702
Reported by:
Jack L. Fuller, Idaho CSR #762
Official Court Reporter

41a
[2] THE DISTRICT COURT OF THE SEVENTH
JUDICIAL DISTRICT
OF THE STATE OF IDAHO
IN AND FOR THE COUNTY OF FREMONT
THE STATE OF IDAHO,
Plaintiff

*
*
*
vs.
* CASE NOS. CR-2016* 1756
* AND CR-2017-285
DARIUS WAYNE HAWS, *
Defendant.
*
*************************************************
CHANGE OF PLEA
APRIL 27, 2017
********************
HONORABLE JUDGE GREGORY W. MOELLER
PRESIDING
*************************************************
JACK L. FULLER, CSR
Official Court Reporter
605 N. Capital
Idaho Falls, Idaho 83402
Phone: (208) 529-1350 Ext. 1138
E-Mail: jfuller@co.bonneville.id.us

42a
[3] APPEARANCES:
FOR THE STATE: Marcia J. Murdoch, Esq.
Fremont County Prosecuting
Attorney
22 W 1st N
St. Anthony, Idaho 83445
Phone: (208) 624-4418
Facsimile: (208) 624-3404
E-Mail:
mmurdoch@co.fremont.id.us
FOR THE DEFENDANT: Joshua A. Garner, Esq.
Fremont County Public
Defender
P.O. Box 1014
Rexburg, Idaho 83440
Phone: (208) 359-3181
Facsimile: (208) 359-5914
E-Mail:
garnerlawoffice@gmail.com

43a
[4] CHANGE OF PLEA
APRIL 27, 2017
THE COURT: We are on the record. It is the 27th
day of April of 2017. We are here in Fremont County
for what was supposed to be one of maybe four trials
that was scheduled today. I understand three of them,
which were my cases, have resolved and the fourth,
which was Judge Stephens’ case, apparently has been
continued. We felt that it would be proper to use
today, then, as the time to have plea changes entered
on all three cases.
So first we’re going to take up the two cases of State
of Idaho vs. Darius Wayne Haws. The first is Case
CR-2016-1756, the second case being 2017-285. The
record should reflect that Marcia Murdoch,
prosecuting attorney for Fremont County, is here on
behalf of the State. We have Mr. Joshua Garner,
who’s the public defender for Fremont County, on
behalf of Mr. Haws; and Mr. Haws is seated next to
his attorney.
Counsel, the Court has been advised that there’s
been a plea agreement reached. I have had a chance
to review the plea agreement in both cases. Which one
of you would like to summarize it for the record in just
general fashion?
MS. MURDOCH: Sure. Yes, Your Honor. This was
an attempt to reach a global agreement on both -- on
the two various cases. On CR-2016-1756 the
defendant is agreeing to plead guilty to Count I,
Delivery of a Controlled Substance, a felony, and the
[5] State has agreed to dismiss Count II and Count III
as part of that agreement. The State’s agreed to
recommend the following: That there be a five-year

44a
unified sentence, two years fixed, three years
indeterminate; a $2,500 fine and civil penalties to be
left to the discretion of the Court; and that the State
would recommend that the Court retain jurisdiction
in this matter; and that the State would be able to
request restitution within 30 days after the
sentencing.
THE COURT: Okay. And then on the second case,
17-285?
MS. MURDOCH: Yes. On the second one the
defendant agrees to plead guilty to Count I, Battery
on a Peace Officer, a felony, and the remaining
misdemeanors
-remaining
charges
are
misdemeanors. Count II, III, and IV will be dismissed
by the State; and the State again would recommend a
five-year unified sentence, two years fixed, three
years indeterminate, $2500 fine. The Court -- the
State would also recommend jurisdiction, but we’d
also recommend that -THE COURT:
jurisdiction?

Would

recommend

retained

MS. MURDOCH: Yeah, retained jurisdiction.
Sorry. And that the State would further recommend
that this run consecutive to the sentence in CR-161756 per -THE COURT: By -MS. MURDOCH: -- Idaho statute.
THE COURT: Yeah, I was going to say, by statute
[6] that has to be consecutive, correct?
MS. MURDOCH: Yes.
THE COURT: Okay.

45a
MS. MURDOCH: Also that the no-contact order
that’s currently in place would remain in effect until
the defendant completes any probation that would be
given on this charge and that the State again would
have the ability to request restitution.
THE COURT: Just so I’m clear, then, since this
would be a consecutive sentence -- and this may go
without saying; but I’ve learned through sad
experience, it’s good to say things that should go
without saying sometimes -- the Riders would run
concurrently; but then the -- if I place the defendant
on probation, the probation would run consecutive. Is
that your understanding? In other words, he’s not
going to do two back-to-back Riders, correct?
MS. MURDOCH: I believe so. Yeah, that’s my
understanding.
THE COURT: Okay.
MS. MURDOCH: It would be kind of hard to do two
back-to-back Riders.
THE COURT: Okay. And if there were any prison
time that he had to serve, that would be consecutive?
MS. MURDOCH: Yes, Your Honor.
THE COURT: Okay. And is the State free to [7]
request any local jail time or is it because of the Rider,
that’s going to be unnecessary?
MS. MURDOCH: Because of the Rider we’re not
requesting that.
THE COURT: Okay. Very good. Mr. Garner.
MR. GARNER: We agree with that recitation, Your
Honor. The only addition we’d make is that this is a
nonbinding plea agreement on both cases.

46a
THE COURT: Okay. That was going to be my next
question. Thank you.
Mr. Haws, you’ve been seated next to your attorney
as he’s explained the terms of this plea agreement on
both of your cases. Do you understand what he’s told
the Court here today?
THE DEFENDANT: Yes, Your Honor.
THE COURT: And is that how you’d like to see your
cases resolved?
THE DEFENDANT: Yes.
THE COURT: Do you feel like you fully understand
what’s been going on?
THE DEFENDANT: Yes, sir.
THE COURT: Okay. We’ll talk with you more in
just a moment, then.
Mr. Garner -- and again, I’ll be referring to both
cases here -- have you had sufficient time to discuss
these cases [8] with your client?
MR. GARNER: Yes, Your Honor.
THE COURT: And have you done all you believe
you should have done to protect his rights and
interests in this matter?
MR. GARNER: Yes.
THE COURT: Have you conducted all the
necessary investigation and discovery; shared the
discovery with your client; and, if proper, filed any
necessary motions?
MR. GARNER: Yes, Your Honor.

47a
THE COURT: And have you explained to your
client his rights and defenses in this action as well as
the consequences of his guilty pleas?
MR. GARNER: Yes, I have.
THE COURT: Do you believe he understands all of
those matters?
MR. GARNER: Yes.
THE COURT: And do you believe he’s competent to
plead guilty?
MR. GARNER: I do.
THE COURT: As his attorney, then, do you consent
to his entry of pleas today?
MR. GARNER: I do, Your Honor.
THE COURT: Okay. Very well. Thank you.
Now, Mr. Haws, when I very first met you -- and [9]
I’ve met you a couple of times now actually
THE DEFENDANT: Yes.
THE COURT: -- I’ve advised you that you have a
right to remain silent. However, if you wish to plead
guilty today, you’ll have to partially waive that right
and answer some questions from the Court under
oath. I’m not doing this to cause more troubles for you;
but before I can accept your plea, I have to verify that
you’re competent to plead guilty; there’s a factual
basis for your plea; and that you’re doing so
knowingly, intelligently, and voluntarily. However,
since you will be under oath, you have to be honest
with the Court or you could be in more trouble. In fact,
you could face perjury charges. Therefore, if I ask you
any questions that you don’t want to answer or you

48a
don’t know how to answer, I’ll let you visit with your
attorney before you give me any answer. Agreed?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Additionally, I need to remind you
that anything you tell me while pleading guilty could
be used against you in a later trial if for some reason
I can’t accept your plea or if you’re later permitted to
withdraw your plea. Do you understand?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Now, given all those stipulations, is
it still your desire to take the oath so that you can
plead guilty?
[10] THE DEFENDANT: Yes.
THE COURT: If that’s the case, then, sir, I’d invite
you to please stand and raise your right hand.
Madam Clerk, would you please place the
defendant under oath.
(Defendant sworn)
THE COURT: Okay. Please be seated, sir. I invite
you to pull the microphone up a little closer. Pull the
microphone up a little closer and aim it right at your
chin. A little closer than that. No. Just so you’re
comfortable, pull the mike -- you can actually move it.
There you go. Okay.
Thank you, Counsel.
Would you please state your full name for the
record.
THE DEFENDANT: Darius Wayne Haws.

49a
THE COURT: Okay. And maybe you should move
it back just a little bit. And have you had any difficulty
in hearing me today?
THE DEFENDANT: A little bit, Your Honor.
THE COURT: I can tell. Have you had any
problems hearing me at any other proceedings?
THE DEFENDANT: Yes.
THE COURT: Okay. And have you ever advised the
Court before that you’ve had problems hearing
things?
THE DEFENDANT: I don’t think I have, Your
Honor.
[11] THE COURT: Have you told your attorney
you’ve had any difficulty in hearing things?
THE DEFENDANT: No.
THE COURT: Okay. Well, let me let you visit with
your attorney about this; and if there’s any rights and
plea options that I need to review with you, we need
to make sure we do that.
Mr. Garner, would you visit with your client for a
moment.
MR. GARNER: Thank you, Your Honor.
THE COURT: We’ll be off the record.
(Pause)
THE COURT: Okay. Let’s go back on the record.
The record should reflect that Mr. Garner had a visit
with his client.
Do you have any concerns about proceeding at this
point, Mr. Garner?

50a
MR. GARNER: No, Your Honor. I’ve asked my
client if he’s understood everything so far today, and
I believe he has. I’ve also asked him if he would like
the aid of headphones to assist him today, and he does
not want those. He just explained that he has to just
listen carefully and focus and he’ll understand what’s
being said. If he doesn’t understand what’s being said
today, he’s told me that he’ll let me know and I can let
the Court know.
[12] THE COURT: Okay. Sir, I’ll try to speak loudly
so that you can hear me. Can you hear me now?
THE DEFENDANT: Yes.
THE COURT: Okay. Now, at the date that you
were arraigned in both cases, one of the questions I
asked you, because I always ask this question, is if
you’ve had any difficulty hearing me; and on those
dates you said no. So was that a truthful answer when
you told me that on both days you were arraigned?
THE DEFENDANT: Well, there’s times I can hear
really good; but I have to focus a lot.
THE COURT: Okay. And so it requires you to focus,
then, correct?
THE DEFENDANT: Yes.
THE COURT: And you’re focused now?
THE DEFENDANT: Yeah.
THE COURT: So do I need to repeat any of your
rights or plea options that I gave you before?
THE DEFENDANT: No.
THE COURT: Okay. Now, I’m going to probably go
over a lot of those similar things here in just a
moment and make sure you understand. But if at any

51a
time you feel uncomfortable with going forward and
feel like that we need to review some things with you
or talk to your attorney further about your
constitutional rights and your plea options, I will let
you do [13] so. Do you understand?
THE DEFENDANT: Yes.
HE COURT: Okay. And again, at the time you were
originally arraigned on both cases, you pled not
guilty. So again, I don’t think you gave up any rights
at that time. Today is the hearing when you’re giving
up your rights, and so today is the day that is the most
important day for you to understand. Do you
understand?
THE DEFENDANT: Yes.
THE COURT: Okay. If I at any time say something
you don’t catch or can’t hear, raise your hand and tell
me. Okay?
THE DEFENDANT: Yes.
THE COURT: Sir, would you state your full name
for the record.
THE DEFENDANT: Darius Wayne Haws.
THE COURT: And are you hearing me clearly now?
THE DEFENDANT: Yes.
THE COURT: Sir, would you state your full name
THE DEFENDANT: Darius Wayne Haws.
THE COURT: And are you hearing me clearly now?
THE DEFENDANT: Yes.
THE COURT: How old are you?
THE DEFENDANT: 51.

52a
THE COURT: And how much education have you
received?
THE DEFENDANT: I graduated.
THE COURT: From?
THE DEFENDANT: South Fremont and Boise.
[14] THE COURT: What year did you graduate
from South Frement?
THE DEFENDANT: I didn’t fully graduate there. I
only had a couple of credits left, and it was like ninety
-- or eighty -- ‘82.
THE COURT: Okay. Do you have any difficulty
reading, writing, speaking, or understanding the
English language?
THE DEFENDANT: No.
THE COURT: Are you feeling well today?
THE DEFENDANT: Yes.
THE COURT: Are you thinking clearly?
THE DEFENDANT: Yes.
THE COURT: Are you currently addicted to
alcohol, drugs, or any controlled substances?
THE DEFENDANT: No.
THE COURT: Are you currently under the
influence of alcohol, drugs, controlled substances,
prescription
medications,
or
over-the-counter
medications?
THE DEFENDANT:
medication.

Just

one

prescription

THE COURT: And what’s that?
THE DEFENDANT: Hydrocodones for my back.

53a
THE COURT: Okay. And when did you take the
Hydrocodone for your back?
THE DEFENDANT: Yesterday.
[15] THE COURT: And is that affecting you today
in any -THE DEFENDANT: No.
THE COURT: -- way?
THE DEFENDANT: No.
THE COURT: Is it relieving pain from you today?
THE DEFENDANT: Yes.
THE COURT: So does that drug, when you take it
properly, allow you to participate fully and
meaningfully in a hearing like this?
THE DEFENDANT: Yes.
THE COURT: And do you feel like you’re fully able
to communicate with your attorney and understand
what we’re talking about in court today?
THE DEFENDANT: Yes.
THE COURT: Any other substances you’ve taken
in the last 48 hours like the ones I indicated?
THE DEFENDANT: No.
THE COURT: Are you currently diagnosed with a
mental illness, disease, or disorder?
THE DEFENDANT: Yes.
THE COURT: What have you been diagnosed with?
THE DEFENDANT: ADHD. Always depressed
unless I take two medications.
THE COURT: And you’re not taking those [16]
medications right now?

54a
THE DEFENDANT: I took them this morning.
THE COURT: Okay. Earlier I asked you if you’d
taken any prescription drugs. So are those
prescription drugs you took this morning?
THE DEFENDANT: Yes.
THE COURT: Okay. What did you take this
morning?
THE DEFENDANT: Celexa and bupropion.
THE COURT: And those were for depression?
THE DEFENDANT: Yes.
THE COURT: And are they helping you to function
better today?
THE DEFENDANT: Yes.
THE COURT: And they’re not in any way keeping
you from perceiving reality clearly?
THE DEFENDANT: No.
THE COURT: Is there anything else you’ve taken
in the last 48 hours by way of over-the-counter or
prescription drugs?
THE DEFENDANT: No.
THE COURT: Or any other controlled substances?
THE DEFENDANT: No, Your Honor.
THE COURT: Any alcohol?
THE DEFENDANT: No.
THE COURT: Are you currently on probation or
[17] parole?
THE DEFENDANT: No.

55a
THE COURT: I need to advise you, sir, if you’re not
a U.S. citizen, pleading guilty to a crime like this
could have serious consequences to your immigration
status. It could result in possible deportation, loss of
your privilege to reenter the country, or loss of your
right to seek citizenship. If any of that concerns you,
I will allow you some additional time to visit with an
immigration attorney if you’d like. Would you like to
do so?
THE DEFENDANT: No, sir.
THE COURT: Okay. Let’s talk first about the older
case, Case CR-16-1756. Sir, there’s been an Amended
Information filed in this case by the State of Idaho. Do
you have that in front of you?
THE DEFENDANT: I do now, Your Honor.
THE COURT: Okay. And what are you charged
with in that case?
THE DEFENDANT: Delivery of a controlled
substance.
THE COURT: And what are the maximum
punishments available to the Court on that charge?
THE DEFENDANT: Life or 25,000 or both.
THE COURT: So that means the Court could send
you to prison for life and give you a $25,000 fine. Do
you [18] understand?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Do you also understand, you may
have to pay restitution and cost of prosecution?
THE DEFENDANT: Yes.
THE COURT: Okay. Now, what are you pleading
guilty to in the other case, Case 17-285?

56a
THE DEFENDANT: Battery on a police officer.
THE COURT: And
punishments for that?

what’s

the

maximum

THE DEFENDANT: Five years, $50,000.
THE COURT: That’s correct. And do you
understand, you could receive either or both of those
maximums?
THE DEFENDANT: Yes, Your Honor.
THE COURT: And do you understand, you could
also have to pay restitution?
THE DEFENDANT: Yes.
THE COURT: Okay. Now, has there been plea
agreements entered in this case?
THE DEFENDANT: Yes.
THE COURT: Can you tell me, first of all, what the
plea agreement is on the 2016 case? That’s the
delivery-of-a-controlled-substance case. What have
you agreed to do and what has the State of Idaho
agreed to do?
THE DEFENDANT: I’m pleading guilty as
described [19] in the paragraph above, which is I’m
pleading guilty to delivery of a controlled substance.
THE COURT: Okay. And if you plead guilty to
delivery of a controlled substance, what does the State
of Idaho agree to do?
THE
counts.

DEFENDANT:

Dismiss

the

remaining

THE COURT: Okay. And then what will they
recommend at your sentencing?

57a
THE DEFENDANT: Two years fixed, three years
indeterminate, and a fine of $2,500, and a
recommendation of retained jurisdiction.
THE COURT: Okay. Now, do you know what
retained jurisdiction means?
THE DEFENDANT: Yes, Your Honor.
THE COURT: What’s retained jurisdiction?
THE DEFENDANT: It means that they’re going to
hold all my time above me; and if I don’t do the Rider
right, then I have to do the time.
THE COURT: Okay. So you’ll go on a Rider.
THE DEFENDANT: Yes.
THE COURT: And on that Rider you’ll be in the
custody of the Department of Corrections, but you
won’t be in the main prison population. You’ll be in a
treatment unit, where you’ll get treatment for
whatever the PSI indicates you need treatment for.
You’ll be evaluated somewhere between six months
[20] to a year from now, and the Court then will have
you come back and then will decide whether to send
you to prison or whether to put you on probation. Do
you understand?
THE DEFENDANT: Yes.
THE COURT: And how the Court determines that
will be largely based on your performance. Do you
understand?
THE DEFENDANT: Yes, Your Honor.
THE COURT: So just because you’re going on a
Rider doesn’t mean you may not later go back to
prison. Do you understand?
THE DEFENDANT: Yes.

58a
THE COURT: Okay. And do you also understand
that you may have to -- you’ve agreed to pay
restitution?
THE DEFENDANT: Yes.
THE COURT: Okay. Now, is that agreement
binding on the Court? Do you know what that means
when I say it’s a nonbinding plea agreement?
THE DEFENDANT: No.
THE COURT: Okay. I’ll let you visit with your
attorney about that.
(Pause)
THE DEFENDANT: That it’s nonbinding.
THE COURT: Right. So what does nonbinding
mean? What does it mean that the Court can or
cannot do?
THE DEFENDANT: It’s up to your decision.
[21] THE COURT: Okay. That’s right. It means I’m
going to listen to the attorneys’ recommendation, but
I don’t have to take Ms. Murdoch’s recommendation.
If I think you need more than five years, I could give
you up to life in prison. Do you understand?
THE DEFENDANT: Yes.
THE COURT: Okay. Now, let’s talk about the
second case, Case 2017-285. That’s the battery-on-anofficer case. What’s the plea agreement on this case?
THE DEFENDANT: Pleading guilty to battery on
an officer.
THE COURT: That’s correct. And if you do that,
what does the State agree to do?

59a
THE DEFENDANT: The remaining charge will be
dismissed.
THE COURT: Okay. So Counts II, III, and IV will
be dismissed.
THE DEFENDANT: Yes.
THE COURT: And what will they recommend at
your sentencing?
THE DEFENDANT: Two years fixed, three years
indeterminate for a total unified sentence of five.
THE COURT: Okay. And what about the fine?
THE DEFENDANT: $2,000 or 2500 civil penalties.
THE COURT: And are they going to ask me to put
[22] you on probation or are they going to ask me to
retain jurisdiction?
THE DEFENDANT: Retain jurisdiction.
THE COURT: Okay. So they are going to ask you
to do a Rider, just like in the other case, correct?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Okay. And my understanding is, this
agreement is, is that the sentence will be consecutive.
Do you know what that means when I say this
sentence will be consecutive?
THE DEFENDANT: Yes.
THE COURT: What does that mean?
THE DEFENDANT: It means that both of them are
together.
THE COURT: Okay. But it means you won’t be
serving them at the same time. You’ll serve the time
on one, then you’ll have to serve the time on the other.
Do you understand?

60a
THE DEFENDANT: Oh, okay. Yes, I do.
THE COURT: So, for example, let’s say I followed
the plea agreement and I gave you five years on Count
I. Then I would give you five years on Count II, and
you would be serving ten years total. Do you
understand?
THE DEFENDANT: Yes.
THE COURT: However, that’s if I follow the plea
[23] agreement. If I don’t, in theory I could give you a
life sentence, and then I know this sounds ridiculous,
but I could tack five years onto your life sentence. Do
you understand?
THE DEFENDANT: Yes.
THE COURT: Okay. Now, do you understand that
even though it’s consecutive, you’d only be doing one
Rider on both cases; but if I do place you on probation,
then your probation would run consecutive. So you
might get five years’ probation on one case and then
five years’ probation on the next case for a total of ten
years probation. Do you understand?
THE DEFENDANT: Yes.
THE COURT: Okay. Do you understand that the
no-contact order that was issued will continue to
remain in effect until you complete your probation or
your sentence?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Okay. Now, that’s a nonbinding plea
agreement too, is it not?
THE DEFENDANT: Yes.

61a
THE COURT: Okay. And so you understand, then,
that the Court doesn’t have to follow the
recommendations on this case either, correct?
THE DEFENDANT: Yes.
THE COURT: Okay. Now, is there anything about
your plea agreement you feel like you don’t
understand?
THE DEFENDANT: No.
[24] THE COURT: Counsel, are you confident that
your client understands the plea agreement?
MR. GARNER: Yes, Your Honor. We’ve reviewed
this several times, gone over it together. I believe he
understands what he’s signed.
THE COURT: Now, Mr. Haws, I’ve looked at both
plea agreements carefully; and they both bear your
signature. Is that not true?
THE DEFENDANT: Yes.
THE COURT: And by signing the agreement, can I
conclude that that means that you’ve read through
the agreement?
THE DEFENDANT: I have, Your Honor.
THE COURT: By signing the agreement, can I
conclude that that means that you understood what
you read?
THE DEFENDANT: Yes.
THE COURT: And by signing the agreement, can I
conclude that that means you agree to all the terms
contained therein?
THE DEFENDANT: Yes, Your Honor.

62a
THE COURT: Okay. Now, have you had sufficient
time, sir, to visit with your attorney about this case?
THE DEFENDANT: I have.
THE COURT: And have you told Mr. Garner
everything he needs to know as a defense attorney in
order to properly represent you in this case?
[25] THE DEFENDANT: Yes.
THE COURT: Have you told him about all of the
evidence and witnesses and any potential defenses
that you might have?
THE DEFENDANT: Yeah.
THE COURT: Have you had a chance to see the
State’s discovery in this case and see the evidence?
THE DEFENDANT: I have, Your Honor.
THE COURT: And have you made your attorney
aware of any mental health issues, disabilities, or
substance abuse issues that you might have?
THE DEFENDANT: I don’t have it any more, Your
Honor, except for the prescriptions.
THE COURT: Okay. And you’ve told him about
that?
THE DEFENDANT: Yeah.
THE COURT: Have you discussed
constitutional rights with your attorney?

your

THE DEFENDANT: Yeah.
THE COURT: And do you feel like your
constitutional rights have been violated in any way?
THE DEFENDANT: No, Your Honor.

63a
THE COURT: Is there anything you’ve asked Mr.
Garner to do that he’s failed or refused to do?
THE DEFENDANT: No.
THE COURT: Are you fully satisfied with his [26]
performance as your attorney in this case?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Now, do you understand that no one
can make you plead guilty to this charge if you don’t
wish to?
THE DEFENDANT: Yes.
THE COURT: And so has anyone forced you or
coerced you or pressured you to get you to plead guilty
to either of these charges?
THE DEFENDANT: No.
THE COURT: Has anyone threatened or
intimidated you or someone close to you to get you to
plead guilty to these charges?
THE DEFENDANT: No Your Honor.
THE COURT: Has anyone promised you I’d be
more lenient on you or place you on probation or give
you any kind of favorable treatment if you pled guilty
to these charges?
THE DEFENDANT: No.
THE COURT: Has anyone offered you a reward of
any kind other than the plea agreements to get you to
plead guilty to these charges?
THE DEFENDANT: No.
THE COURT: Would I be correct, then, if I conclude
that you’re entering both pleas freely and voluntarily,
of your own choice?

64a
THE DEFENDANT: Yes, Your Honor.
[27] THE COURT: Do you understand that before I
sentence you, you’ll be participating in a presentence
investigation?
THE DEFENDANT: Yes.
THE COURT: At this time I advise you that the
presentence investigation will disclose to the Court a
lot of information about your background and history,
including any criminal record that you might have.
Additionally, you would have a right to visit with the
presentence investigator about this case. In fact, she
may ask you some questions about these cases. You
have a right to say as much or as little about the
crimes that you’re pleading guilty to. You need to
know that anything you tell the investigator will
likely be reported to the Court, and I could use that
as a factor even for you or against you at your
sentencing. You also have a right to visit with your
attorney about how much or how little you should say
to the investigator about these crimes. Do you
understand?
THE DEFENDANT: Yes.
THE COURT: Now, do you understand, if you plead
guilty, we’re not going to have a trial. In fact, the trial
today has been cancelled because by pleading guilty,
you are admitting your guilt under oath and
essentially waiving your right to a trial by jury.
THE DEFENDANT: Yes.
THE COURT: Do you understand that if you plead
[28] guilty, I’m not going to presume that you’re
innocent of these charges any longer and the State no

65a
longer has to prove it to a jury beyond a reasonable
doubt?
THE DEFENDANT: Yes.
THE COURT: Do you understand that if you plead
guilty, you give up your Sixth Amendment rights to
confront and have your attorney question your
accusers and your right to show evidence of your
innocence to a jury?
THE DEFENDANT: Yes.
THE COURT: Do you understand that if you plead
guilty, you’re waiving your Fifth Amendment right to
remain silent to the Court about the charges that
you’re pleading guilty to today?
THE DEFENDANT: Yes.
THE COURT: Do you understand that if you plead
guilty, you’re giving up any and all other rights that
you may have as a defendant in a criminal case,
including those that I may not have mentioned here
in court today?
THE DEFENDANT: Yes.
THE COURT: Do you understand that if you plead
guilty, you’re giving up all your defenses to this case
and basically only reserving your right to appeal the
sentences that will come down later?
THE DEFENDANT: Yes.
THE COURT: Do you understand, finally, that if
[29] you plead guilty, that makes you a convicted
felon; and as a convicted felon you won’t be able to
vote; serve on a jury; hold an elected office; or
purchase, possess, or carry a firearm. Do you
understand?

66a
THE DEFENDANT: Yes, Your Honor.
THE COURT: Now, given all of those
consequences, do you want to talk your decision about
pleading guilty over with your attorney any further?
THE DEFENDANT: No, Your Honor.
THE COURT: You still want to go ahead?
THE DEFENDANT: Yes.
THE COURT: Okay. Would you please rise, sir.
THE DEFENDANT: (Complying).
THE COURT: Mr. Darius Wayne Haws, how do you
plead to the charge in Case CR-1 6-175 6, which
alleges that you, on or about the 21st day of April of
2015, in Fremont County, Idaho, unlawfully delivered
a controlled substance, to wit, a number of
Hydrocodone pills, a Schedule II controlled substance,
to a confidential informant?
THE DEFENDANT: Yes.
THE COURT: Do you plead guilty or not guilty?
THE DEFENDANT: Guilty.
THE COURT: Okay. And tell me why you pled
guilty to that.
THE DEFENDANT: I was with my brother, but I
[30] wasn’t the one that was there, but I kind of got
caught in the middle. So it’s like I got that and aiding
and abetting.
THE COURT: Okay. But you’re not pleading guilty
to aiding or abetting. You’re pleading guilty to
delivering. Do you understand?
THE DEFENDANT: Yes.

67a
THE COURT: So let me ask you what you did, then.
First of all, did you have Hydrocodone pills in your
possession?
THE DEFENDANT: No. It was my brother’s.
THE COURT: Okay. Well, where were the
Hydrocodone pills?
THE DEFENDANT: It was in his trunk.
THE COURT: The trunk of his car?
THE DEFENDANT: His car.
THE COURT: Okay. And what happened to the
Hydrocodone pills?
THE DEFENDANT: He sold them and some other
ones to the confidential informant.
THE COURT: Did you know that he had the
Hydrocodone pills?
THE DEFENDANT: I didn’t, not until later when I
got arrested.
THE COURT: Well, obviously, Counsel, if he won’t
admit that he delivered them and he won’t admit that
he knew they were being delivered, I’m not sure we
could accept even an [31] aiding-and-abetting plea at
this time. Do you want to visit with your client for a
moment, Mr. Garner?
MR. GARNER: I will, Your Honor.
(Pause)
THE COURT: Okay. We are back on the record. Mr.
Garner.
MR. GARNER: For the record, Your Honor, I just
reviewed the police reports with my client to help
refresh his memory.

68a
THE COURT: Okay. Very well. Now, before we go
any further, I want to be clear with you, Mr. Haws.
It’s not my intent to allow someone to plead guilty in
my court if they don’t think they committed the crime.
Do you understand?
THE DEFENDANT: Yes.
THE COURT: And so therefore, I’m not trying to
force you to plead guilty or try to convince you to plead
guilty. In fact, we had a jury scheduled to be here
today so that you could tell your story to a jury; but
your attorney told me that you had agreed to plead
guilty. So that’s why we’re doing this today. Do you
understand?
THE DEFENDANT: Yes.
THE COURT: So again, this is up to you. But I need
to know whether or not there’s a factual basis for your
plea. So let me ask you again, why did you plead
guilty -- would you stand, sir. You need to stand.
[32] THE DEFENDANT: (Complying).
THE COURT: Why did you plead guilty to delivery
of a controlled substance?
THE DEFENDANT: Because it was me that did
deliver the other little pills.
THE COURT: Okay. And so tell me what you did.
THE DEFENDANT: The CI come to the house. I
walked out, met him, and he handed me 50 bucks, and
then he left. But it was all on video and pictures and
stuff.
THE COURT: So the video shows you handing the
drugs to the CI?

69a
THE DEFENDANT: Apparently. But I’ve never
seen the footage.
THE COURT: Okay. I asked you before if you’d
seen the discovery, and you said that you had.
THE DEFENDANT: No, but I have -- I’ve read the
discovery, but I haven’t seen the videos.
THE COURT: Okay.
THE DEFENDANT: But I do remember delivering
it to him.
THE COURT: Mr. Garner, are there videos he
hasn’t seen?
MR. GARNER: I don’t know if he’s seen that video.
I have seen the video; and he’s reviewed the reports,
Your Honor.
THE COURT: Okay. Presumably you’re in the
video, [33] Mr. Haws. So do you know what you did
that day?
THE DEFENDANT: Yes.
THE COURT: Okay. And so did you deliver drugs
to a confidential informant?
THE DEFENDANT: I did, Your Honor.
THE COURT: And you’re not saying this -- I mean,
earlier, when I asked you what you did, you said that
you didn’t know there were drugs and you didn’t
deliver them. So I’m trying to figure out why you’re
telling me a different story now.
MR. GARNER: Your Honor, I think he was
confused. There were several buys that were done.
One was done at a park, I believe, where he was kind
of the middleman.

70a
THE COURT: Okay. I’ll accept that as a fair
answer and I won’t draw any inferences therefrom.
Mr. Haws, then, so you’re telling me you did know
that there were -- there was Hydrocodone pills and
you did deliver them to a CI; is that correct?
THE DEFENDANT: Yes, I did.
THE COURT: And did you do that on or about the
21st day of April of 2015?
THE DEFENDANT: Yes.
THE COURT: And did you do that here in Fremont
County, Idaho?
THE DEFENDANT: I did, Your Honor.
THE COURT: And did you have any legal right to
be [34] delivering Hydrocodone pills to the
confidential informant?
THE DEFENDANT: No.
THE COURT: Okay. Let’s go to the next charge,
then. The next charge is a charge of battery on an
officer in Case CR-17-285. How do you plead to the
charge that you, on or about the 28th day of February,
2017, in Fremont County, Idaho, actually,
intentionally, and unlawfully used force and/or
violence upon the person of Officer Miguel Rivera, Jr.,
by striking him in the shoulder and neck with a closed
fist where you knew or had reason to know that
Officer Miguel Rivera, Jr., was a peace officer, sheriff,
or police officer and did commit said battery while
Officer Miguel Rivera, Jr., was engaged in the
performance of his duties? How do you plead to that
charge?
THE DEFENDANT: Guilty, Your Honor.

71a
THE COURT: And why are you guilty of that, sir?
THE DEFENDANT: Because I did strike him.
THE COURT: Who did you strike?
THE DEFENDANT: That Miguel.
THE COURT: Rivera?
THE DEFENDANT: Rivera.
THE COURT: And did you know he was a police
officer?
THE DEFENDANT: Yes.
THE COURT: Was he wearing his uniform at the
time?
[35] THE DEFENDANT: Yes, Your Honor.
THE COURT: And did you intentionally strike
him?
THE DEFENDANT: Yeah.
THE COURT: And did you have any legal right to
strike him?
THE DEFENDANT: No.
THE COURT: And was this an actual strike?
THE DEFENDANT: Yes.
THE COURT: And did this occur -- I may have
asked this before; but just to be clear, did this occur
while he was doing his duty as a police officer?
THE DEFENDANT: Yes.
THE COURT: And did this occur in Fremont
County, Idaho?
THE DEFENDANT: Yes, Your Honor.

72a
THE COURT: And did it occur on or about the 28th
day of February of 2017?
THE DEFENDANT: Yes.
THE COURT: Ms. Murdoch, will the -- does the
State agree there’s a factual basis for both these
pleas?
MS. MURDOCH: Yes, Your Honor.
THE COURT: And Mr. Garner, do you concur?
MR. GARNER: Yes, Your Honor.
THE COURT: Thank you. One last question, sir.
And this pertains to both cases. Are you pleading
guilty to [36] these charges because you really are
guilty or are you pleading guilty for some other
reason?
THE DEFENDANT: I’m pleading guilty because I
did it.
THE COURT: In both cases?
THE DEFENDANT: Yes.
THE COURT: Okay. Thank you. You can return to
your seat.
Counsel, thank you for your assistance in getting
through that.
At this time the Court makes the following
findings: The Court finds that the defendant was
competent to plead guilty. The Court finds that the
defendant understood the nature of the offenses and
the consequences of pleading guilty to both. I also find
that he understood and consented to the terms of the
plea agreements. Additionally, I find he’s set forth a
factual basis for the guilty pleas in both cases.

73a
Therefore, I’m going to conclude that he’s made his
guilty pleas knowingly, intelligently, and voluntarily
with full knowledge of the consequences. I accept the
pleas and would ask Madam Clerk to please enter the
pleas into the record effective today. We’ll schedule
this matter for a sentencing.
I’m going to order, pursuant to 19-2524, a
presentence investigation and a Core-I Assessment.
Those will need to be completed prior to sentencing.
The defendant has 48 [37] hours to contact the
presentence investigator. It’s imperative that you do
that, sir. You’ll be given information on how to do
that. You’ll also need to contact -- you’ll also need to
fill out the GAIN-I Core Assessment cover sheet
before you leave the courtroom today. We’ll set this
hearing for about six weeks out, assuming that works
with our difficult calendar in June. Madam Clerk.
THE CLERK: June 23rd.
THE COURT: It would probably be pushing it to
schedule it for the end of May, wouldn’t it? Let’s see.
That would be one, two, three -- that wouldn’t even be
four weeks. Okay. We’ll have to set sentencing -- I
apologize we can’t do this sooner, but June 23rd at 2:
00 p.m. will be the sentencing. June 23rd.
MR. GARNER: June 23rd. Okay. Thank you, Your
Honor.
THE COURT: And just make special note of that if
you would, Counsel. That’s on a Friday.
MR. MURDOCH: What time did you say?
THE COURT: 2:00 p.m. on Friday, June 23rd.
That’ll be a special law-and-motion day since I’m
going to be gone both of my Tuesdays I’m scheduled

74a
to be here in June. One time I’ll be in Arizona and the
other time I’ll be in Coeur d’Alene. Is there anything
else we need to discuss at this time?
MR. GARNER: No. Thank you, Your Honor.
[38] MS. MURDOCH: I have nothing, Your Honor.
THE COURT: Okay. If there is nothing else, then,
we will be in recess pending sentencing.
Mr. Haws, it’s imperative that you stay in contact
with your attorney and let him know where you are
and that you’re doing well. Okay?
THE DEFENDANT: Yes. Yes, Your Honor.
THE COURT: And additionally, you need to make
sure you show up for your appointments with the
presentence investigator. If you don’t, they ask me to
issue a warrant; and you’ll be taken into jail until
you’re sentenced. Do you understand?
THE DEFENDANT: Yes. I’ll get it done.
THE COURT: Okay. Very well, then. If there’s
nothing else, we’re in recess on this case.
THE DEFENDANT: All right. Thank you, Your
Honor.
MR. GARNER: Thank you, Your Honor.
THE COURT: On both cases.
(Proceedings concluded)

